<html>
<title> - RESTORING U.S. LEADERSHIP IN WEATHER FORECASTING PART II</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       RESTORING U.S. LEADERSHIP

                         IN WEATHER FORECASTING

                                PART II
=======================================================================


                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 26, 2013

                               __________

                           Serial No. 113-38

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
81-727                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                      Subcommittee on Environment

                    HON. CHRIS STEWART, Utah, Chair
JIM BRIDENSTINE, Oklahoma            SUZANNE BONAMICI, Oregon
F. JAMES SENSENBRENNER, JR.,         JULIA BROWNLEY, California
    Wisconsin                        DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         MARC VEASEY, Texas
RANDY NEUGEBAUER, Texas              MARK TAKANO, California
PAUL C. BROUN, Georgia               ALAN GRAYSON, Florida
RANDY WEBER, Texas                   EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas

                            C O N T E N T S

                        Wednesday, June 26, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Chris Stewart, Chairman, Subcommittee 
  on Environment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    11

Statement by Representative James Bridenstine, Vice Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    14
    Written Statement............................................    15

                               Witnesses:

                                Panel I

The Honorable Kathryn Sullivan, Acting Administrator, National 
  Oceanic and Atmospheric Administration
    Oral Statement...............................................    16
    Written Statement............................................    19

Discussion.......................................................    35

                                Panel II

Dr. Kelvin Droegemeier, Vice President for Research, Regents' 
  Professor for Meteorology, Weathernews Chair Emeritus, 
  University of Oklahoma
    Oral Statement...............................................    46
    Written Statement............................................    49

Dr. William Gail, Chief Technology Officer, Global Weather 
  Corporation, President-Elect, American Meteorological Society
    Oral Statement...............................................    59
    Written Statement............................................    62

Dr. Shuyi Chen, Professor, Meteorology and Physical Oceanography, 
  Rosentiel School of Marine and Atmospheric Sciences, University 
  of Miami
    Oral Statement...............................................    71
    Written Statement............................................    74

Discussion.......................................................    87

             Appendix I: Answers to Post-Hearing Questions

The Honorable Kathryn Sullivan, Acting Administrator, National 
  Oceanic and Atmospheric Administration.........................    96

Dr. Kelvin Droegemeier, Vice President for Research, Regents' 
  Professor for Meteorology, Weathernews Chair Emeritus, 
  University of Oklahoma.........................................   125

Dr. William Gail, Chief Technology Officer, Global Weather 
  Corporation, President-Elect, American Meteorological Society..   131

Dr. Shuyi Chen, Professor, Meteorology and Physical Oceanography, 
  Rosentiel School of Marine and Atmospheric Sciences, University 
  of Miami.......................................................   133


                       RESTORING U.S. LEADERSHIP

                         IN WEATHER FORECASTING

                                PART II

                              ----------                              


                        WEDNESDAY, JUNE 26, 2013

                  House of Representatives,
                                Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Chris 
Stewart [Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] 81727.001

[GRAPHIC] [TIFF OMITTED] 81727.002

[GRAPHIC] [TIFF OMITTED] 81727.003

[GRAPHIC] [TIFF OMITTED] 81727.004

[GRAPHIC] [TIFF OMITTED] 81727.005

[GRAPHIC] [TIFF OMITTED] 81727.006

[GRAPHIC] [TIFF OMITTED] 81727.007

[GRAPHIC] [TIFF OMITTED] 81727.008

    Chairman Stewart. The Subcommittee on the Environment will 
come to order.
    Good morning, everyone. Welcome to today's hearing entitled 
``Restoring U.S. Leadership in Weather Forecasting, Part II.'' 
In front of you are packets containing the written testimony, 
biographies, and truth-in-testimony disclosures from today's 
witness panels.
    And I now recognize myself for five minutes for an opening 
statement.
    I would like to thank the excellent witnesses for being 
with us today. We have two panels, and first, Dr. Sullivan, I 
thank you especially for being with us. We had the chance to 
spend some time together last week, and I enjoyed that and 
appreciated the opportunity to get to know you, and we look 
forward to working with you on many important issues.
    I would also like to welcome the Subcommittee's new Vice 
Chairman, the gentleman from Oklahoma, Mr. Bridenstine.
    Mr. Bridenstine. Thank you.
    Chairman Stewart. This hearing is the second installment in 
a process that we began last month to discuss legislation to 
enhance weather forecasting throughout targeted research 
investments at the National Oceanic and Atmospheric 
Administration.
    Severe weather routinely affects large portions of the 
United States, and this year is no different. As we discussed 
in Part I of this hearing, the United States needs a world-
class weather predicting system that effectively safeguards 
American lives and property.
    Today, we are discussing legislation that was recently 
introduced by Vice Chairman Bridenstine, a bill that I am proud 
to cosponsor. The Weather Forecasting Improvement Act of 2013 
prioritizes forward-looking weather research, improves 
procurement of observing systems data from space and land, and 
opens up NOAA processes to encourage private sector weather 
solutions. The legislation is a down payment to upgrade our 
weather predicting systems that has fallen behind according to 
international standards.
    Now, let me be clear what the goal of this bill is. It 
makes the protection of lives and property through improved 
forecasting the top priority for NOAA. The bill does not 
micromanage the Agency--and I know, Dr. Sullivan, you will 
appreciate to hear that--but instead expands resources 
available for achieving this objective.
    I appreciate the wise counsel of the witnesses testifying 
today, and I think we can all agree that improved weather 
prediction is a goal worth pursuing. We should not let the 
perfect become the enemy of the good, and in these tight fiscal 
times, it is absolutely vital that our first and most important 
research programs are authorized by Congress and thus more 
protected from future budgetary constraints.
    At this time I would like to yield the remainder of my time 
to the Vice Chairman from Oklahoma, Mr. Bridenstine, to discuss 
his legislation and the positive impacts it would have to 
protect his State and this Nation from the life-threatening 
severe weather.
    [The prepared statement of Mr. Stewart follows:]

       Prepared Statement of Subcommittee Chairman Chris Stewart

    Good morning and welcome to this morning's Environment Subcommittee 
hearing titled ``Restoring U.S. Leadership in Weather Forecasting Part 
II.'' I'd like to thank our excellent witnesses for being here today. 
I'd also like to welcome the Subcommittee's new Vice Chairman, the 
gentleman from Oklahoma, Mr. Bridenstine.
    This hearing is the second installment of a process we began last 
month to discuss legislation to enhance weather forecasting through 
targeted research investments at the National Oceanic and Atmospheric 
Administration (NOAA). Severe weather routinely affects large portions 
of the United States, and this year is no different. As we discussed at 
part I of this hearing, the United States needs a world-class weather 
prediction system that effectively safeguards American lives and 
property.
    Today we are discussing legislation that was recently introduced by 
Vice Chairman Bridenstine,a bill that I am proud to cosponsor. The 
Weather Forecasting Improvement Act of 2013 prioritizes forward-looking 
weather research, improves procurement of observing system data from 
space, air, and land, and opens up NOAA's process to encourage private 
sector weather solutions. The legislation is a down payment to upgrade 
our weather prediction system that has fallen behind international 
standards.
    Let me be clear about the goal of this bill: It makes the 
protection of lives and property through improved forecasting the top 
priority for NOAA. The bill does not micromanage the Agency, but 
instead expands resources available for achieving this objective. I 
appreciate the wise counsel of the witnesses testifying today and I 
think we can all agree that improved weather prediction is a goal worth 
pursuing. We should not let the perfect be the enemy of the good, and 
in these tight fiscal times it is absolutely vital that our most 
important research programs are authorized by Congress and thus more 
protected from future budgetary constraints.
    At this time I would like to yield the remainder of my time to the 
Vice Chairman from Oklahoma, Mr. Bridenstine, to discuss his 
legislation, and the positive impacts it would have to protect his 
state and this nation from life threatening severe weather.
    Mr. Bridenstine. Thank you, Mr. Chairman, and thank you for 
your leadership and for your co-sponsorship. And I look forward 
to working with you on this. I wanted to take just a few 
moments to recognize some important points about today's 
hearing for me and the people of my State.
    Let me begin by saying how truly honored and proud I am to 
be here. This is my first hearing as the Vice Chairman of the 
Subcommittee on the Environment, and recent events have made me 
even more appreciative of the opportunities we as a committee 
will have to do important work for the American people over the 
next 18 months.
    As every Oklahoman knows, tornadoes are an unavoidable 
challenge faced by millions of Americans. But we know equally 
well that every minute we can add to our tornado detection and 
alert system has a direct effect on the number of lives that 
can be saved.
    As the Subcommittee with jurisdiction over the agency 
responsible for weather research and prediction--the National 
Oceanic and Atmospheric Administration, or NOAA--I believe we 
have a moral obligation to advance legislation to the full 
House that forces NOAA to place its highest priority on what is 
undoubtedly its most important duty: enhancing public safety 
through timely and accurate forecasts of severe weather 
systems.
    To implement these much needed reforms, I have recently 
introduced the Weather Forecasting Improvement Act of 2013. 
This legislation would establish within NOAA a Tornado Warning 
Extension Program aimed at improving the average time for a 
tornado warning from a few minutes to an hour or more. NOAA 
itself has indicated that this is a worthy and achievable goal, 
but sufficient resources and a dedicated effort is needed to 
make it a reality.
    This legislation aims to accomplish this not by requesting 
or spending any new funds at NOAA, but rather by shifting their 
priorities and resources away from lower priority climate and 
ocean research and towards weather forecasting research and 
innovation.
    The inadequacy of attention to potentially life-saving 
advances in weather forecasting is evidenced by the fact that 
NOAA's research arm currently spends more than three times as 
much on climate change research as it does on weather 
forecasting research. Across all government agencies, the 
difference in these misplaced priorities can be measured in the 
billions of dollars. Today's hearing is an important step 
towards the legislative solution needed to fix this problem.
    Finally, I want to thank Acting Administrator Sullivan and 
all of our witnesses for appearing here today, and extend a 
particularly warm welcome to Dr. Kelvin Droegemeier, who will 
be joining the second panel from my home State of Oklahoma.
    Dr. Droegemeier has been an invaluable resource both for my 
office and the staff of the Science Committee as we have 
developed this legislation, and I thank him for making the trip 
from the University of Oklahoma today to lend his perspective 
and answer questions for our committee.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Bridenstine follows:]

   Prepared Statement of Subcommittee Vice Chairman James Bridenstine

    Let me begin by saying how truly and honored and proud I am just to 
be here. This is my first hearing as the Vice-Chairman of the 
Subcommittee on the Environment, and recent events have made me even 
more appreciative of the opportunities we as a committee will have to 
do important work for the American people over the next 18 months.
    As every Oklahoman knows, tornadoes are an unavoidable challenge 
faced by millions of Americans. But we know equally well that every 
minute we can add to our tornado detection and alert systems has a 
direct effect on the number of lives that can be saved.
    As the Subcommittee with jurisdiction over the agency responsible 
for weather research and prediction--the National Oceanic and 
Atmospheric Administration, or NOAA --I believe we have a moral 
obligation to advance legislation to the full House that forces NOAA to 
place its highest priority on what is undoubtedly its most important 
duty: enhancing public safety through timely and accurate forecasts of 
severe weather systems.
    To implement these much needed reforms, I have recently introduced 
the Weather Forecasting Improvement Act of 2013. This legislation would 
establish within NOAA a Tornado Warning Extension Program aimed at 
improving the average time for a tornado warning from a few minutes to 
an hour or more. NOAA itself has indicated that this is a worthy and 
achievable goal, but sufficient resources and a dedicated effort is 
needed to make it a reality. My legislation aims to accomplish this not 
by requesting or spending any new funds at NOAA, but rather by shifting 
their priorities and resources away from lower priority climate and 
ocean research and towards weather forecasting research and innovation.
    The inadequacy of attention to potentially life-saving advances in 
weather forecasting is evidenced by the fact that NOAA's research arm 
currently spends more than three times as much on climate change 
research than it does on weather forecasting research. Across all 
government agencies, the difference in these misplaced priorities can 
be measured in the billions of dollars. Today's hearing is an important 
step towards the legislative solution needed to fix this problem.
    Finally, I want to thank Acting Administrator Sullivan and all of 
our witnesses for appearing today, and extend a particularly warm 
welcome to Dr. Kelvin Droegemeier, who will be joining the second 
panel. Dr. Droegemeier has been an invaluable resource both for my 
office and the staff of the Science Committee as we have developed this 
legislation, and I thank him for making the trip from the University of 
Oklahoma today to lend his perspective and answer questions from our 
Committee.
    Chairman Stewart. Thank you, Mr. Bridenstine.
    I now recognize the Ranking Member, the gentlewoman from 
Oregon, Ms. Bonamici, for her opening statement.
    Ms. Bonamici. Thank you, Chairman Stewart, for holding this 
hearing today.
    This is our second hearing to consider legislation to 
improve the National Oceanic and Atmospheric Administration--
NOAA's--forecasting abilities. And I appreciate your 
willingness, Mr. Chairman, to work together to plan this 
hearing, and I am very pleased that we ended up with such a 
distinguished panel of witnesses.
    The views of NOAA, as represented by Dr. Sullivan, as well 
as those of the other three witnesses from the nongovernmental 
portion of the weather enterprise, will greatly enrich our 
understanding of how to improve weather forecasting. And I 
wanted to thank you, Chairman Stewart, for the bipartisan 
spirit you have shown in inviting collaboration on legislation.
    The draft bill we took testimony on in the first hearing 
has been replaced and expanded upon in the bill introduced by 
Subcommittee Vice Chair Mr. Bridenstine. There are many 
elements of that bill that are promising and I am particularly 
enthusiastic about the new section on tornado forecast 
research. I want to applaud the gentleman from Oklahoma for 
including that provision.
    We all agree that weather forecasting can and must be 
improved. As we learn more about weather forecasting in the 
United States, how it is done, and the partnership that has 
evolved among NOAA, academic researchers, and private 
businesses, it becomes evident that the core of the bill should 
be refocused away from its emphasis on research at OAR, or the 
office of Oceanic and Atmospheric Research, and more on the 
actual forecasters' needs at the National Weather Service. 
Putting all of our legislative emphasis on the OAR seems 
inconsistent with our stated intention of improving forecasting 
and protecting lives.
    OAR is a research arm in NOAA that manages oceans, Great 
Lakes, climate, weather, and computer research. It makes more 
sense, Mr. Chairman, to authorize the National Weather Service 
directly and put the forecasting operation in the lead on 
guiding research into innovations that have real utility. If 
our goal is to enhance forecasting, empowering the forecasters 
would seem to be the obvious way to proceed, and this is in 
fact the way the Army, Navy, and Air Force all do their 
research-to-operations efforts.
    Additionally, the bill as drafted may create unnecessary 
conflict between the researchers at OAR and the forecasters and 
researchers at the National Weather Service, as well as between 
the weather portion of OAR and the oceans and climate 
portfolios at OAR. We need progress in all of these areas to 
improve forecasting.
    As Dr. Sullivan concisely explains in her testimony, in the 
scientific world, weather is classified at shorter timescales 
which technically extends to two weeks. Any forecast timescales 
beyond two weeks are classified as climate. So emphasizing 
weather research over climate research is likely to be 
counterproductive.
    As Dr. Droegemeier states in his testimony, all of us 
recognize the importance of balance between weather and climate 
investment in our Nation's research and operations portfolio. 
Yet the traditional line dividing weather and climate is 
increasingly blurred as climate models are now run at 
resolutions approaching those of weather models. Consequently, 
we would do well to consider weather and climate not as two 
distinct elements at the extreme ends of the spectrum but 
rather as inseparable parts of the Earth's system. And I look 
forward to Mr. Droegemeier's testimony further on that.
    Mr. Chairman, I am confident that working together we can 
craft a bill that is on target with the needs of the weather 
community, fiscally responsible, and protective of the public 
safety. I am very optimistic that your Subcommittee can draft a 
bill that is constructive and truly bipartisan. If we closely 
study the testimony we have received, it will give us a good 
guide for how to move forward, and I hope we can do that 
together.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Ms. Bonamici follows:]

   Prepared Statement of Subcommittee Ranking Member Suzanne Bonamici

    Thank you, Chairman Stewart, for holding this hearing today. This 
is our second hearing to consider legislation to improve the National 
Oceanic and Atmospheric Administration's (NOAA's) weather forecasting 
abilities. I appreciate your willingness to work together to plan this 
hearing, and I'm pleased that we ended up with such a distinguished 
panel of witnesses. The views of NOAA, as represented by Dr. Sullivan, 
as well as those of our three witnesses from the non-governmental 
portion of the Weather Enterprise, will greatly enrich our 
understanding of how to improve weather forecasting.
    I want to thank you, Chairman Stewart, for the bipartisan spirit 
you have shown in inviting collaboration on legislation. The draft bill 
we took testimony on in the first hearing has been replaced and 
expanded upon in the bill introduced by Subcommittee Vice Chair Mr. 
Bridenstine. There are many elements of that bill that are promising. I 
am particularly enthusiastic about the new section on tornado forecast 
research and I want to applaud the gentleman from Oklahoma for 
including that provision.
    We all agree that weather forecasting must be improved. As we learn 
more about weather forecasting in the United States--how it is done and 
the partnership that has evolved between NOAA, academic researchers, 
and private businesses--it becomes evident that the core of the bill 
should be refocused away from its emphasis on research at OAR, the 
Office of Oceans and Atmospheric Research, and more on the actual 
forecasters' needs at the National Weather Service (NWS).
    Putting all our legislative emphasis on the OAR seems inconsistent 
with our stated intention of improving forecasting and protecting 
lives. OAR is a research arm in NOAA that manages oceans, Great Lakes, 
climate, weather, and computer research. It makes more sense, Mr. 
Chairman, to authorize the National Weather Service directly and to put 
the forecasting operation in the lead on guiding research into 
innovations that have real utility. If our goal is to enhance 
forecasting, empowering the forecasters would seem to be the obvious 
way to proceed; this is, in fact, the way the Army, Navy, and Air Force 
all do their research to operations efforts.
    Additionally the bill appears to create unnecessary conflict 
between the researchers at OAR and the forecasters and researchers at 
NWS, as well as the between the weather portion of OAR and the oceans 
and climate portfolios at OAR. We need progress in all of these areas 
to improve forecasting.
    As Dr. Sullivan concisely explains in her testimony, ``In the 
scientific world, `weather' is classified at shorter time scales, which 
technically extends to two weeks. Any forecast timescales beyond two 
weeks are classified as `climate'.''
    Emphasizing ``weather'' research over ``climate'' research is 
likely to be counterproductive. As Dr. Drogemeier states in his 
testimony, ``All of us recognize the importance of balance between 
weather and climate investments in our nation's research and operations 
portfolio. Yet, the traditional `line' dividing weather and climate is 
increasingly blurred as climate models are now run at resolutions 
approaching those of weather models. Consequently, we would do well to 
consider weather and climate not as two distinct elements at the 
extreme ends of a spectrum, but rather as inseparable parts of the 
Earth system.''
    Mr. Chairman, I am confident that, working together , we can craft 
a bill that is on target with the needs of the weather community, 
fiscally responsible, and protective of public safety. I am very 
optimistic that this Subcommittee can draft a bill that is constructive 
and truly bipartisan. If we closely study the testimony we have 
received, it will give us a good guide for how to move forward and I 
hope we can do that together.

    Chairman Stewart. Thank you, Ms. Bonamici. And let me state 
as well that we look forward to working with you and other 
Members in a bipartisan fashion as I think is appropriate for a 
Subcommittee such as this.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    It is now my honor to introduce our first witness panel. 
And our first witness today is Hon. Kathryn Sullivan, acting 
Under Secretary of Commerce for Oceans and Atmosphere and 
Acting Administrator for the National Oceanic and Atmospheric 
Administration.
    Previously, Dr. Sullivan served as Assistant Secretary of 
Commerce for Environmental Observation and Prediction, as well 
as performing the duties of NOAA's Chief Scientist. She is a 
distinguished scientist, a renowned astronaut, which is in my 
opinion very cool, and an intrepid explorer. Dr. Sullivan 
earned her doctorate in geology.
    And as I am sure, Doctor, you know, spoken testimony is 
limited to five minutes after which the Members of the 
Committee will have five minutes each to ask questions. So I 
now recognize Dr. Sullivan for five minutes to present her 
testimony.

          TESTIMONY OF THE HONORABLE KATHRYN SULLIVAN,

                     ACTING ADMINISTRATOR,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Ms. Sullivan. Thank you, Chairman Stewart, Ranking Member 
Bonamici, Members of the Committee. It is a pleasure to be with 
you this morning.
    I would like to start by thanking you for your support for 
NOAA. We share a goal of improving the United States' weather 
forecasting, and so we welcome your interest in something about 
which we throughout the Agency also care very strongly.
    While the intent of the legislation as submitted is a very 
good one, we do have still a few serious concerns about some 
aspects of the bill. We look forward to working with you to 
discuss those in the weeks ahead. The products and services 
that the Nation has come to rely on from NOAA require research 
across many science disciplines and scales. I look forward to 
working with you to refine some aspects of the bill that will 
ensure that we can reach our shared goal of improved weather 
services and products.
    NOAA is entrusted with the responsibility of providing 
environmental intelligence to American citizens, businesses, 
and governments. This is what we all need to enable informed 
decisions on a range of Earth science issues and scales from 
the local to the global and the short-term to the long-term. We 
provide a suite of products and services, including reliable 
and timely delivery of public weather warnings that save lives 
and property and enhance our national economy.
    Much of our success in providing these products and 
services comes from scientific and technological breakthroughs 
produced by research across scientific disciplines and a range 
of time and space scales. Therefore, we caution and appreciate 
the Committee's concerns about erecting artificial boundaries 
between these disciplines or across these scales that would 
hinder the advancement of our mission and the critical research 
that can help achieve the goal we share.
    Our understanding of Earth system phenomena along short and 
long timescales strengthens our weather products and services 
and allows us to examine the ways in which we can make 
improvements such as highly accurate hurricane track 
predictions further in advance. Emergency management officials 
have indicated to us that at ideal capacities, NOAA would 
provide highly consistent and accurate hurricane landfall 
predictions at days five and six, allowing for pre-positioning 
of crews and enhanced evacuation efforts. Many economic sectors 
would see significant cost savings with highly accurate drought 
predictions ranging 6 months to several years in advance.
    If NOAA is to achieve these goals and also achieve the 
improved warning we need on severe and acute events like 
tornadoes and severe storms, we must have the flexibility to 
research both shorter and longer timescale phenomena.
    Historically, weather and climate models only incorporated 
atmospheric inputs and outputs. In recent years, scientists 
have recognized the need for these to be integrated with ocean 
observation and science to provide a more accurate picture of 
how our entire Earth system works.
    For example, the El Nino Southern Oscillation, or ENSO, is 
a recurring pattern of periodic warming and cooling in ocean 
temperatures off the coast of South America. These significant 
changes in tropical Pacific water temperature affect weather 
patterns worldwide. Daily and seasonal weather in the United 
States are affected by these slightly longer-term seasonal 
climate events. So improving our weather forecasts requires 
that we follow the science and apply our research and 
observational efforts appropriately across the continuum of 
time and space.
    Advanced computing assets and modeling methods are also 
crucial elements of our national forecasting infrastructure. 
Over the past two decades, our tornado warning lead times have 
more than doubled and we share your aim of continuing to 
improve the timeliness of such warnings. Computing capacity and 
computer modeling are indispensable to this.
    The upgrade to NOAA operational computers that is scheduled 
to be completed next month marks a big step forward and we 
thank you for supporting the Disaster Relief Appropriations Act 
of 2013 that made this possible. In addition, the President's 
Fiscal Year 2014 budget requests further funds for NOAA to take 
the next vital step forward in operational supercomputing, 
ultimately providing a 27-fold increase in computing capability 
by 2015 and putting us on par with the world-leading forecast 
centers again.
    NOAA uses many tools to help determine what new data or 
technologies will yield the best improvements in forecast 
accuracy and so warrant investment. Observing System Simulation 
Experiments, or OSSEs, are just one of these tools. They are 
computationally intensive and time-consuming. Observing system 
experiments and adjoint simulations are two other tools that 
can provide similar analytical insight and rigor much more 
efficiently. Thus, we would hope the final bill would not 
stipulate that only OSSEs be used to assess the relative value 
and benefits of observing systems.
    NOAA regards the protection of the people of the United 
States from the devastation that weather can bring as a sacred 
trust and duty. Fulfilling this obligation requires a robust, 
flexible, and integrated program of sustained environmental 
observations, scientific research aimed at computing our 
forecasts and warnings, and cutting-edge modeling and 
computing. Our end goal is a weather-ready Nation. We 
appreciate the bill's intent to advance this cause and look 
forward to working with you to refine its provisions.
    I thank you again for the opportunity to testify on this 
important matter and am happy to take your questions.
    [The prepared statement of Ms. Sullivan follows:]
    [GRAPHIC] [TIFF OMITTED] 81727.009
    
    [GRAPHIC] [TIFF OMITTED] 81727.010
    
    [GRAPHIC] [TIFF OMITTED] 81727.011
    
    [GRAPHIC] [TIFF OMITTED] 81727.012
    
    [GRAPHIC] [TIFF OMITTED] 81727.013
    
    [GRAPHIC] [TIFF OMITTED] 81727.014
    
    [GRAPHIC] [TIFF OMITTED] 81727.015
    
    [GRAPHIC] [TIFF OMITTED] 81727.016
    
    [GRAPHIC] [TIFF OMITTED] 81727.017
    
    [GRAPHIC] [TIFF OMITTED] 81727.018
    
    [GRAPHIC] [TIFF OMITTED] 81727.019
    
    [GRAPHIC] [TIFF OMITTED] 81727.020
    
    [GRAPHIC] [TIFF OMITTED] 81727.021
    
    [GRAPHIC] [TIFF OMITTED] 81727.022
    
    [GRAPHIC] [TIFF OMITTED] 81727.023
    
    [GRAPHIC] [TIFF OMITTED] 81727.024
    
    Chairman Stewart. Thank you, Dr. Sullivan, for your 
testimony today. Thank you for your extraordinary service to 
your country for many years.
    I would remind the Members that Committee rules limit 
questioning to five minutes. And the Chair will at this point 
open the round of questioning, and the Chair recognizes himself 
for five minutes.
    Dr. Sullivan, you mentioned a couple things in your 
testimony I would like to maybe expand on a little bit. And the 
first one I would like to go a little quickly, saving time for, 
perhaps, a second question as well. You mentioned the money 
provided by the Super Storm Sandy relief funding that was 
appropriated recently and that NOAA has committed to Congress 
to immediately undertake two very important OSSEs, or the 
Observing System Simulation Experiments, to assess potential 
gap-filling satellite technologies. And in our meeting last 
week, we had a chance to talk about this just a little bit, GPS 
radio occultation and the geostationary hyperspectral sounding.
    For this latter technology can you explain to the Committee 
your evaluation criteria? Are you going to evaluate a 
constellation of six instruments around the globe or only a 
single sounder here in North America? And can you then give us 
some insight into, you know, with that decision how that will 
affect the results of these experiments?
    Ms. Sullivan. Thank you, Mr. Chairman.
    That Observing System Simulation Experiment, as I 
understand, is still being formulated. I don't have at hand the 
detail of whether a--whether the initial plan is to do a single 
instrument or then a full complement of 6 or what the time and 
computational resource required to do either and both of those 
would be, but I would be happy to get that for you.
    Chairman Stewart. Okay. Help me understand. Can you get 
meaningful data with just one or do you really need six to draw 
very meaningful conclusions?
    Ms. Sullivan. That is a very subtle, technical answer that 
goes to how the data would be incorporated into global forecast 
models. I would have to get some of our scientific experts to 
give you a view on that.
    Chairman Stewart. Okay. Well, I look forward to those--you 
know, that reply from you. It would be helpful for us.
    And, you know, I wouldn't presume that you can't achieve 
what you want to do with only the one, but it would certainly 
seem like six is much more meaningful and I am sure you have 
constraints regarding funding that would impact that.
    Ms. Sullivan. Certainly to provide--and when you run a 
global model, you need to initialize it, start it out with some 
initial conditions. And to do that you need to sample the 
entire globe.
    So we take today, for example, polar satellite data, 
sounding data, from all across the globe and we take ground-
based instrumentation data from all across the globe shared by 
international partners at no cost to each nation. So that is 
the current initialization. It does make first-order sense. If 
indeed the performance of the hyperspectral sounder proved out, 
as is postulated in the written literature, it certainly might 
make sense, but that density and precision could aid in the 
initialization of global models.
    Chairman Stewart. Okay. Thank you. And again, we look 
forward to more detailed response on that.
    I think you will like my second question. It is a little 
easier perhaps. What are--you know, we have seen so much--so 
many advances in technology, so much--such a greater result 
over the last couple decades, certainly from when I was 
younger, and it is remarkable really. But, of course, there is 
much more that we can do and so I would ask you, what are some 
of the promising technologies and some of the promising 
research areas that you are not able to pursue because of some 
perhaps restrictions in funding? What would you like to be 
doing that you are not able to do right now?
    Ms. Sullivan. I would focus on two things, and my answer 
will pick up the piece of Mrs. Bonamici's statement. One of the 
things that we have found most fruitful within NOAA to making--
really advancing the research, making sure we have got a sharp 
focus on the most important things to move forward on, and 
ensuring it couples closely and rapidly into the forecast world 
are co-locations and testbeds.
    So I can cite two, one from the Vice Chairman's home State, 
which I know he knows well. At the National Weather Center at 
the University of Oklahoma in Norman, we have co-located the 
National Weather Service's Weather Forecast Office, the actual 
operational forecasters; our National Center for Severe Storms 
Prediction. Anytime you see ``the Severe Storm Center says'' on 
your television, that is coming from NOAA, from the main 
forecasting engine that produces American weather forecasts; 
and finally, our Office of Oceanic and Atmospheric Research's 
National Severe Storms Lab.
    Putting those three entities so close together, letting the 
scientists and the forecasting experts really work very 
flexibly and fluidly with each other and work together around 
what has been developed--they are called a hazardous weather 
testbed--has really been a--made a tremendous difference in the 
rate of advance and refinement of the forecasters' tools.
    So what we aim to do at NOAA, frankly, in essentially all 
of our research, we are not really a blue sky research agency. 
Yes, we do research that is labeled climate. Far the great 
majority of that research within NOAA is seasonal to 
interannual and very directly oriented towards understanding 
the longer-term underlying patterns that shape daily and 
seasonal weather in the United States. And these close 
couplings with the Severe Storms Lab, the testbed, the Storm 
Prediction Center, and the forecasters have proven very 
fruitful. I would love to replicate that model in more places.
    Chairman Stewart. Okay. Great. You know, and my time is--
has now ended. Maybe I could close with just these two 
observations. The first is obvious, and that is as Mr. 
Bridenstine has indicated in what took place recently in his 
home State. There is more that we can do and the technology is 
available for us now perhaps where we can take some 
generational leaps forward in providing a longer warning period 
and more safety and security for people. And we look forward to 
working with you in helping that come to pass.
    The Chair now recognizes Ms. Bonamici for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    And I want to follow up on your previous answer, Dr. 
Sullivan, but before that, I want to join the Chairman in 
thanking you for all your service. I really liked reading in 
your testimony about your view from the shuttle showing the 
interconnectedness of all the systems.
    So following up on your last answer, Dr. Sullivan, 
according to some weather experts and people who have raised 
concerns about proposals to reallocate significant resources 
from NOAA's climate and ocean investments to weather 
forecasting. So I noted in several places in your written 
testimony where you caution us against actions to increase one 
important mission area to the detriment of NOAA research 
programs in climate or ocean science. So will you please 
explain how climate and ocean research and research flexibility 
are critical to NOAA's mission providing more timely accurate 
weather forecast?
    Ms. Sullivan. Thank you, Mrs. Bonamici. I would be 
delighted to do that.
    Let me open by saying that weather forecasting and the 
protection--the forecast services that protect American lives 
and livelihood already--are already NOAA's highest priority. 
They are encoded in national security functions that we are 
directed to fulfill by the President of the United States in 
support of the Commerce Department's mandates. So they stand 
already far head and shoulders above many other things that we 
do.
    How is this flexibility important? How does it help us? Let 
me cite our Hurricane Forecast Improvement Program to give you 
an example of that. This was assembled after a state of land 
falling hurricanes, very devastating hurricanes. We brought 
together academic, federal, outside researchers and 
forecasters. We looked at the spectrum of underlying causal 
factors, what patterns in the atmosphere lend to the formation 
of hurricanes, shape them, steer them, stop them? What phases 
of things do we need to understand?
    The answer is a mixture of things ranging from 
understanding decades-long oscillations in the Earth that put 
the Earth sometimes in a phase we are in now where the Atlantic 
basin is very active, and then a few decades later in the phase 
when the Atlantic basin is not very active. That is a deep 
underlying heartbeat of the planet. To know the predictability 
of hurricanes, we need to understand those kind of longer-term 
heartbeats.
    But to really get track and intensity right is also clear 
on the other end of the scale. We need to have models that can 
resolve the actual inner core of a hurricane very precisely. So 
this Hurricane Forecast Improvement project set out an array of 
research endeavors coupled to this purpose across that 
timescale. They cross-check regularly and frequently which ones 
are advancing. They created a stream that could advance and 
yield benefits to forecasting with the operational 
supercomputing assets in place at the moment and they yielded a 
second stream that could take us even further if we could step 
ahead the capacity of the operational supercomputer, like way 
ahead. And then they created another stream to bridge them and 
make sure that we didn't leave good results sitting on the 
sidelines for any longer than are necessary.
    The flexibility of this sort of integrated team to move 
those pieces back and forth under a broad charge given by the 
Congress to get better hurricane forecasting, get these targets 
by these times, and then the throttle-setting that the Congress 
can allow us each year in the appropriations has really made 
that a tremendously fruitful program. I think that is a great 
model to emulate.
    Ms. Bonamici. Thank you. And this is similar to the 
Chairman's second question. Based on your years of experience 
and your expertise, what changes if any should be made to the 
structure or processes at NOAA to provide continuing 
improvement in weather forecasting? Are there some structural 
things that could change that would help improve them?
    Ms. Sullivan. We are trying to make some of those now, and 
I think a couple others could help. Again, I would cite the 
Hurricane Forecast Improvement Program. It had many strands of 
activity under it but it was agreed upon with the Congress at 
the level of the program and then appropriated at that level 
each year. That, in my view, is a sound and healthy balance of 
the rightful prerogatives of the Congress and the flexibility 
needed to adjust programs as they evolve and deal with setbacks 
when they occur as--you know, as they will in the research 
arena.
    We have also--I think if we can improve the way we all look 
at keeping NOAA's operational supercomputers closer to the 
cutting edge, we would find a great improvement there.
    And I will give you one great example. We have research 
models running. In fact, the research model that runs under the 
hurricane program cannot be put into the operational 
supercomputer right now. So during hurricane season we run the 
National Hurricane Center, and we run this research model in 
real time because we can't fit it into the operational 
supercomputer. We should be able to fit it in. We have a model 
that could have forecasted last year's diverter 12 hours in 
advance. It did. It did but it was running in research mode. We 
need to be able to move those more rapidly into supercomputing 
rather than waiting so long for big-step functions in our 
supercomputers.
    Ms. Bonamici. That is very helpful. Thank you very much, 
Dr. Sullivan.
    And I see my time is expired. I yield back, Mr. Chairman.
    Chairman Stewart. Thank you, Ms. Bonamici.
    We now recognize the Vice Chair, Mr. Bridenstine, for five 
minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman, and thank you, 
Dr. Sullivan, for being here. I have just a few questions.
    You would agree that increasing tornado warning lead times 
is as much as one hour is a priority of NOAA's?
    Ms. Sullivan. I wouldn't set one hour necessarily as a 
priority, Mr. Bridenstine. There is a significant response 
question as to what people would do with one hour. And I think 
we have begun mounting in concert again with the weather center 
down in Norman some social science and risk communication 
research lines to understand A) is that the right target to 
set? And B) if it were, what do we need to understand about how 
to present and communicate that so that it doesn't become 
something somebody heard and then got busy on something else 
and then by the time the hour came they were immersed in a 
video game and the tornado ran right over them.
    Mr. Bridenstine. So more lead time would be more dangerous?
    Ms. Sullivan. More lead time if it triggered the 
inappropriate response to take safety----
    Mr. Bridenstine. Is it----
    Ms. Sullivan. --could be inimical to the gain----
    Mr. Bridenstine. --you are impugning the motives of the 
people we are trying to protect. If they had an hour lead time, 
that would be better than 16 minutes, which is what the people 
in Oklahoma got this time, correct?
    Ms. Sullivan. I do believe longer than 16 would be 
beneficial. I am simply saying there is a genuine question 
about how humans respond to impending risks that are--risk 
scientists tell us we need to be cautious about in just 
imagining that an hour or a day is the right time frame to 
communicate on.
    Mr. Bridenstine. So the----
    Ms. Sullivan. So I consider it an open question.
    Mr. Bridenstine. And so the government should make 
decisions about how much lead time we give people because we 
know better than they know how to protect themselves?
    Ms. Sullivan. No, we should understand how to communicate 
the information we have so that it is effective for the people 
who have those decisions to take.
    Mr. Bridenstine. So, let's say we had an hour lead time. 
Would you suggest we should withhold that information because 
an hour is too much and people aren't smart enough to take 
cover?
    Ms. Sullivan. We provide five and three day outlooks now to 
citizens and to emergency managers in a rich dialogue that has 
evolved over time to where we know how--we all know how to 
respond to that information. And again, there are powerful 
instances from your home State and town of communities doing 
just that. I will defer to Dr. Droegemeier to amplify on it. He 
has lived through them.
    So I am not saying withhold it. I am simply saying that the 
challenge of communicating forecast information effectively to 
decision-makers is a genuine question that needs to be 
approached thoughtfully, and the best scientists I know on this 
question cautioned me, including scientists at the National 
Weather Center, cautioned me the questions we need to probe 
together to be sure we would communicate that information 
effectively and not unintentionally have exactly the result we 
didn't want.
    Mr. Bridenstine. Okay. Are you--you are familiar with the 
phased array radar, obviously, that is in Norman, Oklahoma----
    Ms. Sullivan. I am.
    Mr. Bridenstine. --and I am a Navy pilot myself and 
certainly I have been involved in these kind of technologies 
from a war-fighting perspective and the ability to detect 
targets from long distances and direct energy in a very 
specific and dynamic way to get precise measurements I think is 
critically important. Is this technology something that you 
believe we could advance to the point where we could deploy it 
in a way where we could get an hour lead time?
    Ms. Sullivan. It is--I don't have the technical acumen to 
conclude that phased array radar itself is pivotal to that. We 
are still learning a lot about what the dual polarization 
NEXRAD radars can give us. I would go back to the example that 
I cited to Mrs. Bonamici in assimilating NEXRAD current radar 
into very fine resolution models, which we are running in 
research mode.
    Last year, in June of 2012, in fact very accurately 
forecast the retro line of very severe storms which were 
tornadic-strength storms 12 hours in advance. So we do already 
know finer-scaled modeling, which requires better--much better 
computing capacity operationally than we currently have, and 
proper incorporation of that data, all 3 ingredients are 
critical. It is not just by a radar. But those three we have 
demonstrated could give us a 12-hour very good--not just the 
convective probability but there is the storm line and here is 
where we are propagating.
    MPAR is certainly--offers additional promise but we have 
had one of them that we are still experimenting with to 
understand just what that potential could be. And as your bill 
suggest, be sure that we really understood its contribution 
before we might make any nationwide deployment decision.
    Mr. Bridenstine. Let me ask you, if you were in Moore, 
Oklahoma, and somebody said to you maybe we shouldn't have this 
type of research because if we gave you too much information 
too early you might not act on it, how do you think my 
constituents in Oklahoma would respond to that?
    Ms. Sullivan. But that is not what I am saying, sir. I am 
saying that I want to be sure I say to you, go now or some 
communication that you really register as the one that will 
prompt you to the action that you should take. And that--the 
language style mode of that communication is something that 
needs to be studied and worked with people like your 
constituents.
    Mr. Bridenstine. Okay. I yield back.
    Chairman Stewart. All right. Thank you, Mr. Bridenstine.
    And now, we turn to Ms. Edwards.
    Ms. Edwards. Thank you, Chairman Stewart, Ranking Member 
Bonamici. I appreciate today's hearing on weather forecasting. 
In my view, it is a necessary part 2 on a subject that greatly 
impacts the American public and our greater economy.
    And I am pleased that NOAA, which is headquartered in my 
Congressional District--thank you, Dr. Sullivan--has the 
opportunity to be before our committee today and to discuss 
efforts to improve weather and climate forecasting.
    Today's panels are an improvement, I think, on the last 
that we have had. I am concerned about the legislation that we 
are discussing today. And, as indicated in the testimony of our 
witnesses, the legislation is really flawed in its execution in 
my view. NOAA is a multi-mission agency, and that means its 
priorities--ocean, atmosphere, climate, and weather--are 
interconnected. I think Dr. Sullivan has testified to that 
today.
    And given what we have learned and experienced with 
increasingly severe and more frequent severe storms, 
hurricanes, tornadoes, flooding, it is hard for me to believe 
that you can separate or slash funding of climate research when 
all of our weather scientists and our forecasters indicate the 
kind of interconnectivity that Dr. Sullivan has discussed. Our 
Earth is a system, and I think in order to understand the 
processes, we have to understand it as a whole.
    And so with that, Dr. Sullivan, I know we have had a couple 
of one-on-one conversations about NOAA's work and concern about 
where we stand vis-`-vis Europeans in weather forecasting. And 
I know we talked about our--the lagging in our supercomputer 
computing power as evidenced by some of the different modeling 
that we saw with Hurricane Sandy. And so I wonder if you could 
explain to the Committee some of the institutional differences 
between the U.S. Government's role in weather forecasting 
versus Europeans' that keep NOAA from being as cutting edge is 
we would like it to be?
    Ms. Sullivan. Thank you, Mrs. Edwards.
    The model that received such acclaim, rightfully, during 
the evolution of Hurricane Sandy, especially the early days, is 
a model run by the European Center for Midrange Weather 
Forecasting. That is a combination research and operational 
forecasting center that is charged with one and only one thing 
and that is to run a global model that gives a 12--10- to 12-
day forecast.
    They have become very good at that. They--it is definitely 
one of the leading models at that time range. What else to say? 
That is all they do at the European Center so the rest of the 
products and services that most national hydro-meteorological 
services like NOAA are charged with fall to the U.K.'s 
Meteorological Office or Meteo-France or the Deutscher 
Wetterdienst.
    So to really understand what Europe is doing, you need to 
take a look at both the European Center and the collection of 
Federal or national-level weather services throughout each of 
the European states. That is closer to comparable.
    What does it--what else does European Center do that we 
would like to emulate more closely? They make consistent 
progressive investments in their main operational 
supercomputer. They have set a target and a policy of staying 
very close to the leading edge of computational capacity. In 
the United States, in contrast, we tend to step forward an 
operational supercomputer and live with it for quite a while as 
it falls further and further behind the cutting edge and then 
make a big step forward and let it fall back again. That has 
certainly been the case with work that has been going on at 
NOAA in the last five years.
    Europe has also focused on methods that determine how you 
take data into a model to a method called data assimilation or 
a step called data assimilation. It is almost--it is in some 
respects more important than what data do you have. You get the 
data in properly and understand the errors that it contains. 
They have pioneered new methods over at the European Center for 
data assimilation. They are very computationally intensive. We 
have not been able to adopt those methods in NOAA's operating 
supercomputers because they are so intensive.
    Ms. Edwards. Do we need to?
    Ms. Sullivan. Well, I was just going to transition and say 
we know it is a good advance and so our scientists again--OAR 
scientists plus our satellite data scientists and our weather 
service scientists altogether developed a method that is as 
effective and less computationally intensive, and proof of 
that--solidity of that advance is that the Europeans are now 
going to adopt our method because it does the same work more 
efficiently.
    So stay closer to the cutting edge in our operational 
supercomputer. It would be good. Places like our Science Center 
down in Norman that I cited as an example, emulate the kind of 
close coupling of research and operations that the European 
Center has. So we do know how to do that and we do it but we do 
it in a little more distributed and more topic-oriented fashion 
around aviation weather challenges, severe storm challenges, 
and tropical storm challenges than they have chosen to do in 
Europe. But we have a greater array and greater variety of 
weather phenomena in the United States than all of Europe 
combined. And so I think our plurality and our diversity suits 
this country's needs.
    Ms. Edwards. Thank you very much.
    Thanks, Mr. Chairman.
    Chairman Stewart. Yes, Ms. Edwards.
    We now--Dr. Broun for your five minutes of questioning.
    Mr. Broun. Thank you, Mr. Chairman.
    Dr. Sullivan, the Chairman, the Vice Chairman and I are all 
three pilots, and so we have been very engaged in weather 
issues for a long period of time and concerned about weather, 
and we are concerned not only from a pilot operational 
perspective but also how it affects all of our constituents and 
not only in our district but all across this country.
    The Fiscal Year 2014 request proposes 180 million for 
climate research and $82 million for weather research. If 
Congress were to spend 158 million on climate research and 112 
million on weather research, would this help or hinder weather 
forecasting?
    Ms. Sullivan. Additional funding in weather forecasting 
would certainly help that effort. My concern would simply be to 
understand where--what are we giving up? NOAA's climate 
research is not multi-decadal, century-scale climate research. 
It is climate research aimed at understanding and more closely 
relating phenomena such as the Pacific decadal oscillation or 
the Atlantic meridional oscillation to the weather phenomena 
that affect the United States so that we can extend our lead 
times on forecasts out beyond five days to maybe seven or ten 
days.
    These broad underlying patterns that are at climate 
timescales, we are--we believe are critical to unlocking the 
secrets.
    Mr. Broun. Well, to just tag on to what Commander 
Bridenstine was just saying about time interval between tornado 
forecasts, I just found it incredible that you would even 
question giving people more advanced time for a warning of an 
impending tornado.
    But let me go back to that same question and let me ask it 
in a different way. Which contains--contributes to weather 
forecasting more? A dollar for climate research or a dollar for 
weather research?
    Ms. Sullivan. It depends on what the--each dollar is spent 
for, Dr. Broun. I can put a dollar into some aspects of weather 
research that are going to make only a minimal advance then I 
might make an advance in understanding just how El Nino effects 
seven day storm tracks and sets up convective patterns in the 
central United States that would do a lot better for Oklahomans 
than understanding when they are prone to tornado outbreaks.
    Mr. Broun. Well, I am sure the people in Oklahoma would 
like to have had an hour warning on their tornado that was 
bearing down upon them, and I think a dollar in weather 
forecasting research would have helped in that regard.
    Let me kind of change tracks a little bit. Dr. Sullivan, as 
you know, in 2012 a financial scandal was uncovered at the 
National Weather Service where a senior official moved money 
certainly without authorization and very highly unlike--
illegally they moved that. They moved it between different 
accounts. It was reported that the amount of unauthorized 
transfers of money may have exceeded $100 million over several 
years. Did these transfers in any way negatively impact 
programs focused on transitioning new technologies from 
research into operations?
    Ms. Sullivan. Those transfers, Dr. Broun, were all within 
the National Weather Service itself and they were typically 
transfers from systems accounts, software upgrade accounts and 
things like that, into operations and management. So they were, 
as the investigation indicated, well-intentioned on the part of 
the offending individuals, which doesn't justify the act but 
well-intentioned to try to support the forecasters in their 
everyday work where they felt they had budget shortfalls.
    Mr. Broun. $100 million is a lot of money and moving things 
around illegally is certainly--should not be done by anybody, 
and my concern is that when we talk about tornadoes, when we 
talk about what I faced when I climbed into a cockpit in with 
these other gentlemen did, weather is an important issue.
    I understand climate research and I understand weather 
research, and I just disagree with maybe my Democratic 
colleagues over where our priorities should be set and 
obviously what you seem to be so wedded to as far as doing 
climate research.
    But the folks in Oklahoma need more advanced warning, and I 
don't think it is the government's responsibility to decide how 
they respond to that warning. We need to give people as much 
advanced warning as they possibly can for a tornado or 
hurricane or anything else. And doing weather research, I 
think, is extremely important.
    Now, I applaud the Vice Chair's bill that he has put 
together and I think it is important for us to proceed, and 
hopefully, it will be marked up and we will pass it into law.
    Thank you so much, Mr. Chairman, and I yield back.
    Chairman Stewart. Thank you, Mr. Broun.
    And our final questioner for this panel would be Mr. Weber 
from Texas.
    Mr. Weber. Thank you, Mr. Chairman.
    Let me follow up, Dr. Sullivan, what Dr. Broun was asking 
about. I think when he asked you about the transfers that might 
have been illegal, you said the individuals were well-
intentioned, I think?
    Ms. Sullivan. In their own mind, Mr. Weber, they professed 
to be doing things that they felt kept the weather forecast 
enterprise healthy as it needed to be in their mind. I don't 
defend the statement. I am just reporting what they said in 
their depositions.
    Mr. Weber. So were you aware of that when it took place?
    Ms. Sullivan. I was not aware of it when it took place.
    Mr. Weber. How soon thereafter did you possess the 
knowledge that it had happened?
    Ms. Sullivan. I try to recall that timeline. There--it came 
to NOAA's attention through an Office of Investigator General 
complaint that was referred to us for action by the OIG. We 
very promptly acted on that, established in concert with the 
Office of the Secretary, an investigation and inquiry panel, 
placed some individuals on administrative leave, and proceeded 
to conduct an inquiry.
    Mr. Weber. And was that time frame a month, a week, a year?
    Ms. Sullivan. The time frame from our receiving word of the 
problem to initiating the inquiry was hours. The inquiry was 
completed over some several months.
    Mr. Weber. Okay. Do you have knowledge as to what has 
happened to those particular individuals?
    Ms. Sullivan. I do have knowledge and I--as I know the 
panel appreciates under the privacy laws of this country, I 
can't speak to individual matters in open session. We have 
shared those details with our appropriators.
    Mr. Weber. Okay. Have they--and I am not asking for names 
or specifics, but have they been disciplined? Has anybody lost 
their job?
    Ms. Sullivan. Individuals have been disciplined. 
Individuals are no longer with NOAA. Financial controls have 
been thoroughly reviewed across the entire department and 
modified and strengthened, and training has been put into place 
for all senior officials.
    Mr. Weber. I find the term well-intentioned individuals 
kind of interesting because I am just thinking when they--when 
those--as you called them well-intentioned individuals play 
fast and loose, if you will, with the rules, would you agree 
that one can certainly make that assessment----
    Ms. Sullivan. I----
    Mr. Weber. --that they have played fast and loose with the 
rules?
    Ms. Sullivan. Oh, that they were either willfully and 
inexcusably ignorant of the rules or played fast and loose----
    Mr. Weber. Or they played fast and loose. We hear that a 
lot in this capacity that people are ignorant of certain things 
that go on, and I keep thinking to myself they should probably 
run for Congress at that level of ignorance.
    Nonetheless, when we up here look at a situation where 
someone plays fast and loose with the rules, can you understand 
that it gives us pause for concern when somebody brings a 
budget request to us and says this is going to negatively 
impact our ability to predict climate change and then we have 
to think, well, there has been reported incidences of people in 
that agency playing fast and loose with the rules. And I 
believe the quote is well-intentioned individuals who we would 
ascertain that played fast and loose with the rules. So when 
someone comes up with the budget request and they say this is 
going to impact us negatively, can you understand how we might 
draw a similar conclusion that may be that is a fast and loose 
playing with the rules that we might question that? Could you 
understand how we could come to that conclusion?
    Ms. Sullivan. I follow your logic, Mr. Weber. I would ask 
that you attribute the fast--the well-intentioned to the people 
who said it and to the people who were doing the actions.
    Mr. Weber. Okay.
    Ms. Sullivan. It is certainly not my characterization of 
them.
    Mr. Weber. Okay. You don't want to be associated with it. I 
don't blame you.
    Ms. Sullivan. I don't care to be associated with it----
    Mr. Weber. Right.
    Ms. Sullivan. --and I think I feel, judging from your 
comment, my reaction to and response to that incident and those 
behaviors----
    Mr. Weber. Right.
    Ms. Sullivan. --are very close to yours.
    Mr. Weber. Right. Well, we would hope that it--that there 
would be enough oversight and enough safeguards in that agency 
that that kind of playing fast and loose with the rules A) as 
it purports to moving money--well, some of us have been afraid 
it was actually illegally--would also purport, too, that when 
you come to this committee or when you come to the Congress and 
say we need money for climate change and, yes, there is a 
discussion--this is going to be about climate change--that 
there is not the same kind of fast and loose playing with the 
facts. And that is what is our concern.
    And I know that you can't speak for everybody but we just 
simply ask you to--implore you to make sure that that kind of 
fast and loose playing goes away and that if you have anything 
to do with it, well-intentioned individuals or otherwise, you 
make sure we get the facts.
    Ms. Sullivan. I assure you that I will do that, Mr. Weber.
    Mr. Weber. Okay. I appreciate that. And I yield back.
    Chairman Stewart. I thank you, Mr. Weber.
    Dr. Sullivan, thank you for your time today. Thank you for 
your testimony. There is one item I would like to follow up 
with if I could, and that is, as I--you may remember, last 
September you testified before the Committee's Oversight 
Subcommittee on a hearing about the National Weather Service, 
and on November 6, Committee staff sent follow-up questions for 
the record to you as well as to one of your colleagues, Mrs. 
Maureen Wylie.
    The Committee has not yet received a response to those 
questions for the record. And I would ask if you would commit 
to me and to other Members of this Committee as well that you 
would answer those questions as soon as possible?
    Ms. Sullivan. I certainly will make that commitment to you, 
Mr. Chairman. The formal clearance processes, as I know you 
understand, sometimes wreak havoc with the actual timeliness 
and delivery. It is my understanding that we have had staff-to-
staff conversations on those matters but the formal transmittal 
has been delayed.
    Chairman Stewart. Okay. Can you----
    Ms. Sullivan. I admit we will work on that.
    Chairman Stewart. Can you give us some indication of when 
you--that would--that process would be complete and we could 
expect answers to those questions?
    Ms. Sullivan. I will probe where that is--where things 
stand and get back to you on that.
    Chairman Stewart. Okay. So we are going to--you are going 
to get back to us on when you are going to get back to us. Is 
that--okay.
    Ms. Sullivan. I will get back to you on the timeline that I 
believe I can commit to.
    Chairman Stewart. Okay. All right. Thank you for that.
    Again, one more time, thank you for your testimony today.
    And, Members of the Committee, as we have discussed, can 
have additional questions for you and they--and we will ask you 
to respond to those in writing in an appropriate and timely 
fashion.
    And the witness is now excused and we will now move on to 
our next panel. Thank you, Dr. Sullivan.
    Ms. Sullivan. Thank you, Mr. Chairman.
    Chairman Stewart. At this time, I would like to introduce 
our second witness panel, and I will introduce them 
individually and then allow them time for their opening 
statements.
    Our first witness today is Dr. Kelvin Droegemeier, Vice 
President for Research and Regents' Professor of Meteorology at 
the University of Oklahoma. Dr. Droegemeier is a Fellow of the 
American Meteorological Society and a member of the National 
Research Council Board on Research Data and Information.
    In 2004, Dr. Droegemeier was appointed by President Bush to 
the National Science Board and was reappointed in 2010 by 
President Obama. He holds a Ph.D. in atmospheric science from 
the University of Illinois.
    And I will remind all of the witnesses that, as has already 
been stated, your spoken testimony is limited to five minutes 
each and after which Members of the Committee will have five 
minutes to ask questions.
    And I now recognize Dr. Droegemeier for five minutes to 
present his testimony.

              TESTIMONY OF DR. KELVIN DROEGEMEIER,

                  VICE PRESIDENT FOR RESEARCH,

              REGENTS' PROFESSOR FOR METEOROLOGY,

                  WEATHERNEWS CHAIR EMERITUS,

                     UNIVERSITY OF OKLAHOMA

    Dr. Droegemeier. Good morning, Chairman Stewart. Thank you 
so much. Ranking Member Bonamici, Mr. Bridenstine, good to see 
you. Thank you so much for the privilege to speak to you this 
morning on a very important matter. I appreciate all the work 
that you are doing to help protect our citizens from the 
destructive forces of nature.
    I offer my perspectives as a Professor of Meteorology at 
the University of Oklahoma. I have been there almost 30 years 
working at the National Weather Center as a meteorologist 
really at the nexus of severe weather in the Nation, in fact, 
in the world. I witnessed firsthand last month as these 
tornadoes ravaged parts of our State and many thousands of 
people no doubt would be dead today were it not for the 
extraordinary warning and prediction system we have in this 
country.
    So great--thanks to NOAA and all the wonderful work they 
have done, but yet, in fact, our work is not done and we still 
have people dying. Even one death is really intolerable.
    I would like to make three very brief points for you this 
morning. First, I really do welcome this bold, focused 
initiative on high-impact weather prediction. It builds upon a 
strong foundation that we have in this country, a very, very 
solid foundation. It prioritizes key topics, and really the 
only thing I would add would be to build on what Dr. Sullivan 
said in terms of the prescriptiveness of the bill really 
allowing scientists to focus on the best tools and techniques 
to do things like assess observational needs. And I want to let 
you know that the academic community stands ready to work with 
you and to help you however we possibly can. You can marshal 
all of those resources.
    The second point was talked about in the last session. It 
is extremely important. As a meteorologist it may seem 
heretical for me to talk about the social sciences, but in fact 
this is a real people problem. Really, ultimately, what we are 
dealing with here is a loss of life, and our ability to deal 
with that means that we have to address the issues of how 
people understand and predict and prepare and so on, respond to 
warnings. We need to understand how we convey and formulate 
uncertainty in messaging to the public, how the public responds 
and comprehends warning information. There are issues of trust 
and source security of information and so on.
    And I think we have to even ask ourselves whether or not 
the whole current warning and watch system really needs to be 
rethought from the ground up starting with people because the 
people are the ones who are affected ultimately.
    Also, I would like to talk to the issue of tornado warning 
lead time. As specified in the Act, this is a very, very 
important issue, extremely important. It has to be looked at. 
But I think we want to be careful about not focusing entirely 
on that magical number because, ultimately, the question is, as 
Dr. Sullivan mentioned, what are people going to do with that 
one hour?
    In my written testimony, I give you a little narrative of 
what I saw firsthand on May 31 in Oklahoma as thousands of 
people fled their homes, put themselves in harm's way because 
they had a very large amount of lead time without really 
knowing what to do with it. This issue resides in the domain of 
the human behavioral sciences. It is not a weather or 
technology problem. It is something we really have to learn how 
to address. And so I would argue that really our focus ought to 
be on the goal of zero deaths. Zero deaths. We achieved that in 
microbursts.
    Wind shear--you folks are pilots. You know, we had a lot of 
planes crashing back in the '70s. We had a concerted attack on 
understanding the causes of wind shear we put in technology and 
training and over 20 years now have passed since then and no 
one has died in an aircraft accident due to wind shear. Zero 
deaths is not an unattainable goal and that puts our focus on 
people.
    Finally, I would like to highlight the importance of a 
truly interdisciplinary approach. Dr. Sullivan and Ranking 
Member Bonamici talked about this a little bit. In terms of our 
testbeds, these operational test beds that we have that 
integrate research and operations are very important. They 
exist but they need to be expanded and improved and enhanced. 
They do a really wonderful job but we could yet do more.
    And I would suggest to you that this notion of research to 
operations is probably a little bit misconceived. It really 
says there is research over here and operations over here. I 
suggest that research plus operations, working hand-in-hand 
with the operational folks, working with the researchers hand-
in-hand as we do in Norman, this wonderful hazardous weather 
testbed that truly is credited with saving lives, developing 
new technology, and the rigors of operational activities with 
scientists and operations people working together, that to me 
is the way that it ought to be done.
    I would like to close by showing you a brief movie here of 
the May 20 tornado in Moore and it gets to the question I was 
asked earlier about the value of MPAR and this movie, I will 
introduce it to you. We will go ahead and start it.
    [Video shown.]
    The first clip is of a TV station, KWTV Channel 9 in 
Oklahoma City. There is the Moore tornado. It is hailing; there 
is debris falling. And I am going to freeze it on a radar 
picture from the TV station you will see in a moment that shows 
where the current warning time comes from before you have a 
given thunderstorm, and then the path of the tornado is 
extrapolated based on its previous history. So there you see 
it. That hook-shaped image there in the lower left part is the 
tornado itself. That great part is the debris ball and the line 
moving from it to the Northeast is the track of the tornado at 
various times. So that is where we got the 16, 30, 40 minutes 
of lead time. People in harm's way saw that image.
    [Slide.]
    What I am showing you now is sort of the future. This is a 
picture of counties in Oklahoma and the two lines of inverted 
triangles are actual tornado paths in 2011. We reran the 
forecast of this situation there. You see the radar echoes 
forming. And as as this thing plays forward, you will see these 
black contours, these dark circles. Do you see them forming 
along the tornado track? This forecast was produced an hour in 
advance, experimentally, not in real time, but we got very, 
very close to predicting the occurrence of a real tornado of a 
real event an hour in advance.
    This is what is possible. Can we do it this good every 
time? No. You see some tornadoes down there in the lower right 
that have no real counterpart associated with them. And so the 
science is not there yet, but 20 years ago we didn't think this 
was even theoretically possible. Now, we are not only able to 
show it is possible, but in the hazardous weather testbed, we 
are able to demonstrate it in real time working with 
operational forecasters.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Droegemeier follows:]
    [GRAPHIC] [TIFF OMITTED] 81727.025
    
    [GRAPHIC] [TIFF OMITTED] 81727.026
    
    [GRAPHIC] [TIFF OMITTED] 81727.027
    
    [GRAPHIC] [TIFF OMITTED] 81727.028
    
    [GRAPHIC] [TIFF OMITTED] 81727.029
    
    [GRAPHIC] [TIFF OMITTED] 81727.030
    
    [GRAPHIC] [TIFF OMITTED] 81727.031
    
    [GRAPHIC] [TIFF OMITTED] 81727.032
    
    [GRAPHIC] [TIFF OMITTED] 81727.033
    
    [GRAPHIC] [TIFF OMITTED] 81727.035
    
    Chairman Stewart. Thank you, Mr. Droegemeier. I appreciate 
your testimony.
    Our second witness I would like to introduce as Dr. William 
Gail, Chief Technology Officer of the Global Weather 
Corporation and President-Elect of the American Meteorological 
Society. He was previously a Director in the Startup Business 
Group at Microsoft, Vice President of Mapping Products at 
Vexcel Corporation and Director of Earth Science Programs at 
Ball Aerospace. He is a lifetime associate of U.S. National 
Academy of Sciences Research Council, and Dr. Gail received his 
Ph.D. in electrical engineering from Stanford University.
    And Dr. Gail.

                 TESTIMONY OF DR. WILLIAM GAIL,

                   CHIEF TECHNOLOGY OFFICER,

                  GLOBAL WEATHER CORPORATION,

        PRESIDENT-ELECT, AMERICAN METEOROLOGICAL SOCIETY

    Dr. Gail. Thank you. Chairman Stewart, Ranking Member 
Bonamici----
    Chairman Stewart. Turn your microphone on, please.
    Dr. Gail. Thank you. Chairman Stewart, Ranking Member 
Bonamici, and distinguished Members of the Subcommittee, it is 
a privilege to be here today and provide testimony. Thank you 
for your invitation.
    As was mentioned, I am Cofounder and Chief Technology 
Officer of Global Weather Corporation, a startup company 
providing precision weather forecast to businesses within the 
energy, media, transportation, and consumer sectors. I am also 
President-Elect of the American Meteorological Society, and I 
was a member of the recent National Research Council study 
advising on future directions for the National Weather Service.
    This is a tremendous time to be part of the weather 
community. We have an opportunity to serve the Nation, our 
citizens and businesses, far more effectively than has ever 
been possible. The reason is simple. Our work involves three 
basic cavities: observing the current weather, converting that 
information into forecasts, and getting the results to the 
people who need it.
    Each step in this process has been sequentially 
revolutionized. Beginning in the 1960s with the advent of 
satellites and ultimately Doppler radars, continuing through 
the 1980s with rapid improvements in computing and weather 
forecast models, and finally, today, with broad adoption of the 
internet and mobile phones. We are now beginning to deliver the 
ultimate vision: individualized weather information matched to 
every user's need, time, and place.
    So why is this important? Well, Sandy and the Oklahoma 
tornadoes reminded us that we can and must do far more to 
protect lives and property, but often forgotten is the great 
potential of weather information to drive economic growth. On 
average, economic output at the state level varies by up to 
three percent from one year to the next due to weather 
variability. In four of the eight States represented on this 
subcommittee, the variation is over 8 percent.
    Improved weather information can clearly be a growth engine 
for the Nation's economy. Indeed, in every market my company 
enters, we find opportunity for efficiency improvement.
    For example, Xcel Energy uses ten percent of America's wind 
farm capacity. An improved wind forecast system saved $22 
million for the ratepayers in 2012 alone.
    The trucking industry lost $18 billion in 2011 to weather-
related accidents and delays, yet weather forecasts are not 
routinely used. A company called Telogis is about to change 
that, providing weather and road surface forecasts for every 
mile of major road in the country.
    All this is made possible by the American Weather 
Enterprise, a truly remarkable collaboration between academia, 
government agencies such as NOAA, and the private sector. 
Working cooperatively allows us to be bigger than the sum of 
our three parts, a key reason for our success.
    One current goal is to unify our voice and provide 
prioritized community-based guidance for legislation such as 
this. To this end, a group of enterprise leaders recently met 
and agreed to build an advocacy organization called the Weather 
Coalition.
    It is important to recognize that our strength arises from 
breadth. Space weather, hydrology, oceanography, and coastal 
meteorology are key sister disciplines to weather. Both near-
term and long-term weather are important. One often hears that 
businesses need a predictable regulatory environment to plan 
long-term growth. Predictable climate is needed for the same 
reasons.
    Whether it is a military strategist analyzing regional 
vulnerabilities over the coming decade or simply a parent 
planning a sunny day for their daughter's wedding next year, 
understanding climate and its variability are integral to 
weather forecasting. Rather than dividing the weather and 
climate communities, we need to bring them together to improve 
forecasts and ever-longer timescales.
    Now, we do have problems to address as a community from the 
looming satellite gap to forecast model performance. The Sandy 
Supplemental already helps substantially, but our problems are 
not simple. The issues are interlinked requiring collaboration 
across NOAA and often the entire enterprise. The proposed 
legislation, while admirable for furthering forecast 
improvement, is too limited in scope, too prescriptive, and not 
sufficiently guided by broad community input to accomplish what 
the Nation deserves. I urge you to build from this legislation 
drawing on community advice and encouraging innovative 
solutions within NOAA and across the enterprise.
    Unlike most people who have the honor to serve as the AMS 
president, my career has not been entirely within the field of 
weather. It gives me a bit of an outsider perspective. My 
experience is that the people in this field--and I 
enthusiastically include those in NOAA--are the most dedicated, 
passionate, and innovative people I have ever met. To a person, 
they have one focus: make the Nation safer and more productive. 
Give these people your legislative support and they will return 
the investment many times over.
    Thank you.
    [The prepared statement of Dr. Gail follows:]
    [GRAPHIC] [TIFF OMITTED] 81727.036
    
    [GRAPHIC] [TIFF OMITTED] 81727.037
    
    [GRAPHIC] [TIFF OMITTED] 81727.038
    
    [GRAPHIC] [TIFF OMITTED] 81727.039
    
    [GRAPHIC] [TIFF OMITTED] 81727.040
    
    [GRAPHIC] [TIFF OMITTED] 81727.041
    
    [GRAPHIC] [TIFF OMITTED] 81727.042
    
    [GRAPHIC] [TIFF OMITTED] 81727.043
    
    [GRAPHIC] [TIFF OMITTED] 81727.044
    
    Chairman Stewart. Thank you, Dr. Gail.
    Today's final witness is Dr. Shuyi Chen, Professor of 
Meteorology and Physical Oceanography at the Rosentiel School 
of Marine and Atmospheric Science at the University of Miami. 
She previously served as an editor for Weather and Forecasting 
Journal at the American Meteorological Society. She is a Member 
of the National Academies Board on Atmospheric Science and 
Climate and a Fellow at the American Meteorological Society. 
She received her Ph.D. in meteorology from Pennsylvania State 
University.
    Dr. Chen.

            TESTIMONY OF DR. SHUYI CHEN, PROFESSOR,

             METEOROLOGY AND PHYSICAL OCEANOGRAPHY,

                   ROSENTIEL SCHOOL OF MARINE

                   AND ATMOSPHERIC SCIENCES,

                      UNIVERSITY OF MIAMI

    Dr. Chen. Chairman Stewart, Ranking Member Bonamici, and 
other respected Members of the Subcommittee, thank you for the 
opportunity to testify before you on the important issue of 
improving weather forecast.
    So I would like to focus my testimony on three points 
regarding the bill and many have been stated. I wouldn't 
repeat. These are my personal opinions, although they are very 
much based on the number of studies conducted by the National 
Research Council of the National Academies.
    The first point will be probably the most important point. 
I will come back to that. So I would first like to make a 
comment on the second and the third. The second referred to a 
point in the bill about specific technology, evaluating 
observing systems in terms of using models. I would say in its 
present form it is narrow and prescriptive, so we would like to 
see that to be broadened to address the challenge that we are 
facing in terms of a--having that technology more flexible and 
including other new technologies that are currently in place.
    In terms of weather prediction, we have made tremendous 
progress. The point I would like to bring your attention to is 
that we are at a crossroads that we face new challenge. One of 
the issues is that we can actually make weather forecasts 
beyond two weeks. This is where I think the weather and climate 
will come together because this is an important area.
    In fact, in Florida, when we make a forecast for 
hurricanes, the long-term projection into the next several 
weeks, a probablisitic forecast, is important because that is 
the time we need to make plans, for instance, for water 
management. The science that can be done nowadays is much 
better than we can imagine before.
    So, again, follow the same theme. I think weather and 
climate forecasts are connected. They both are needed by 
society. I think we are ready to do that and we certainly would 
like to see that happen.
    Now I am going to the first point of my testimony in terms 
of a need for a holistic approach to the transition from 
research to operations. As you all know that we have made 
tremendous progress in terms of forecasting high-impact weather 
like the event in Moore, Oklahoma, and Super Storm Sandy. The 
problem that we are facing, the challenge that needs to be 
resolved, is the following: the research and the operations are 
sitting in two boxes. They are not well-connected. They are 
well-intentioned, as we probably heard before, but there is no 
connection between them or no link, so we have not made much 
progress even though a lot of the studies have suggested we 
should.
    I think Congress can help us in terms of providing that 
linking piece. This is where I think a National Advisory Board 
would help to make that decision for transition from research 
to operations, not only at OAR or within NOAA but also a broad 
research community that is driven by users' needs, and at the 
same time we would like that the oversight for this important 
effort to making decisions for transition to the National 
Weather Service.
    Currently, many models not only they are not running in 
real time by NOAA operations; they have no pathway to even 
getting into NOAA operations. So this is where I think Congress 
can help to bridge that gap.
    I would like to show you a research that is done--many 
research has been done for Super Storm Sandy. And this is a 
familiar picture, and I would like you to be the judge to see 
what research has come along and whether they should be going 
to operations.
    [Slide.]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    This storm taught us a lot of things. Many things have 
worked well. One thing we recognize Sandy as a hurricane does 
not to operations, with its environment, and many models had 
made forecasts quite far in advance. If you look at the panel 
on the right that many global models prodicted the storm track 
way in advance, especially one of the models from Europe that 
prodicted nine days before the storm would have a high 
probability of hitting the Northeast.
    On the other hand, our high-resolution model to the left on 
the slide can really get into the nitty-gritty details of the 
storm impact in terms of rainfall and so on, interaction 
between the storms. And furthermore, the models conducted at a 
universities have made much more progress in terms of resolving 
the surface winds. For instance, the right panel is model 
prediction and the left panel is observed from satellite. 
Those--you can't really almost tell them apart. The research is 
really making progress.
    In terms of forecasting impact, these are--you are looking 
at, the surface wave and ocean sea level height. This was not 
imaginable many years before, but recently, we can really 
quantitatively forecast the sea level heights when the storm is 
approaching, especially to the right of the storm track where 
you have water pushing onshore and offshore to the south. So we 
can quantify this information much more accurately by going to 
high-resolution storm surge impact forecasts. All this is 
available now in the research community.
    [Video shown.]
    The last thing you will see is a movie that is model 
simulation of the weather systems that are interacting with 
each other. One is Sandy as it is approaching the land and the 
upper atmosphere has a wave that interacts with Sandy. They 
wrap around each other, dancing around, and this has made Sandy 
extremely special.
    This type of research is available, but unfortunately many 
of these models developed by the research community have no 
pathway to go into operation. We would really like the Congress 
to address this important issue going forward.
    Thank you.
    [The prepared statement of Dr. Chen follows:]
    [GRAPHIC] [TIFF OMITTED] 81727.045
    
    [GRAPHIC] [TIFF OMITTED] 81727.046
    
    [GRAPHIC] [TIFF OMITTED] 81727.047
    
    [GRAPHIC] [TIFF OMITTED] 81727.048
    
    [GRAPHIC] [TIFF OMITTED] 81727.049
    
    [GRAPHIC] [TIFF OMITTED] 81727.050
    
    [GRAPHIC] [TIFF OMITTED] 81727.051
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Stewart. We thank the witnesses for your testimony 
today and we remind Members of the Committee that rules limit 
questions now to five minutes. And the Chair at this point will 
open the round of questions and the Chair recognizes himself 
for five minutes for questioning.
    I would like to expand a little bit on some things that 
have been said both in this panel and in the previous panel. 
And, Dr. Droegemeier, I would like to begin with you and your 
desire--I think the goal where we said we had theCan objective 
of trying to have zero deaths from hazardous weather, and you 
said that that was an achievable goal.
    I would like to open that to the other members of the 
panel. Do the rest of you believe that that is an achievable 
goal as well? Dr. Gail?
    Dr. Gail. My specific knowledge on this issue is somewhat 
limited so I prefer not to say what an achievable goal is, but 
certainly we have continued to make progress in our ability to 
forecast. And so improving beyond what we are currently doing 
towards an hour, to an hour, passed an hour is a--definitely a 
worthy goal, absolutely.
    Chairman Stewart. Okay. And Dr. Chen?
    Dr. Chen. I think in terms of scientific knowledge, the 
predictability which means how long or how far in advance we 
can predict a certain phenomena, it is very much skewing the 
research that we are trying to search for these answers because 
answer ocean as a system that has a limited predictability. In 
terms of scientific findings, we are not at a stage where we 
can tell exactly which phenomena, how far in advance we can--
but it will certainly search for the answer, including 
hurricanes. Is a hurricane predictable 7 days out or 30 days 
out? That is an open question.
    Chairman Stewart. Okay. And, look, I understand you can't 
account for people doing foolish things. You can give people 
adequate warning and they can ignore it, they can run into the 
face of the storm. People will do dumb things sometimes. But 
the point is you give them the information that would allow 
them to protect and--their property and their own lives in many 
cases.
    And, Dr. Droegemeier, I am wondering, do you want to expand 
on that or we just leave it at that, that this is an achievable 
goal? Because I believe that it is an achievable goal with the 
exception again of sometimes foolishness.
    Dr. Droegemeier. Yes, sir, Mr. Chairman, I agree. And I 
think the--part of the point of that is to get our focus on 
what is really important. There are lots of metrics that we can 
use to measure forecast accuracy, reliability, lead time; all 
of those things are floating around. At the end of the day, 
though, it is about people dying. And I think if we say what is 
it going to take to get us to that place of zero deaths, then 
it really forces us to confront the difficult challenges of 
understanding what those deep problems are.
    But you are quite right. I think there are going to be 
circumstances where people will die unnecessarily due to 
decisions they made, but I think we can do a lot better job of 
conveying information, formulating it, and helping them 
understand what the consequences of their actions are.
    Chairman Stewart. Yes. The money that we spend on weather 
research and weather studies is money well spent. We have an 
achievable goal here that would be dramatic and some would say 
fanciful, but it is not. And I think we would obviously support 
any efforts in order to move towards that goal.
    In my remaining time, I would like to come back. We had an 
interesting exchange between Mr. Bridenstine and the previous 
witness, Dr. Sullivan, where there was this--a bit of an idea 
about, you know, well, we--can we give 16 minutes or could we 
give an hour? And I would like to explore that just a little 
bit and that is, again, the idea that just very quickly from 
the three of you, if we could give someone an hour's warning, 
that is always better than giving them 15 minutes' warning. 
Does anyone disagree with that?
    Okay, no, of course not. I mean, clearly, it is better to 
give them an hour than 15 minutes. But then if any of you would 
like to talk about some of the concerns we have with giving 
people more time and what some of the reactions that people 
have that make it so they don't take advantage of that or how 
you have to communicate that? Any on the panel like to address 
that? Dr. Gail?
    Dr. Gail. Sure. One of the big challenges we face not only 
in this area but in all aspects of weather it is how to get the 
right information to the right people at the right time. So you 
can have an hour warning but to get it to them in a way that 
they can act on it and they can choose to do the most 
appropriate thing for themselves is still a big challenge. And 
so when we say we want an hour warning, the next step is to 
make sure that that information doesn't in fact get to people; 
it doesn't just come out on some single website. That is a 
challenge, being able to get it into--to them in a way that 
they can make best use of it.
    Chairman Stewart. Okay. Thank you. Then it seems that we 
have two problems. One is the technology and the research in 
actually providing the--whatever it is, 45 minutes or an hour, 
as long as it might be, and then kind of the human element of 
helping people to take advantage of that. But we don't want to 
make perfect the enemy of the good. Recognizing that there are 
challenges on the backside doesn't diminish the great--the good 
that can come from expanding and lengthening the amount of time 
we could warn people.
    Okay. And my time is expired again. Thank you to the 
witnesses and I now recognize the Ranking Member, Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman. And thank 
you to this very distinguished and knowledgeable panel of 
witnesses.
    And in some of the testimony it mentioned three reports, 
recent reports that have studied how we can improve weather 
forecasting, one from the National Academy of Science, one from 
the National Academy of Public Administration, and then NOAA's 
own Scientific Advisory Board.
    And in those reports they did discuss the issue that you 
brought up, Dr. Chen, about the moving innovation and research 
from labs to the weather forecasting operations. My impression 
is that there has been a lack of communication and an inability 
to--for those entities to connect and that is something that 
hopefully we can address through this legislation.
    But I wonder, could you talk also about other 
recommendations in those reports? Are there recommendations in 
those reports that could help improve the legislation? Because 
we all have the same goal here of improving weather 
forecasting. Can we make use of those reports in other ways?
    Do you want to start, Dr. Chen, and then the others?
    Dr. Chen. Thank you. I would like to follow up on that. 
There have been many studies from the National Research 
Council, and each report recommends almost exactly the same 
thing. We need a systematic approach to research--from research 
through operations and then transfer the technology. Our 
current system so far has not worked as well. Like I mentioned, 
the research and the operations are somewhat separate.
    So I think that this particular panel and this particular 
bill could help us to address that in terms of providing that 
mandate, perhaps a National Advisory Board. Even though the 
funding has been appropriated to do this work, right now, the 
problem is the structure that are not allowing the smooth 
transition from the research arm of NOAA to the operations, and 
more importantly, from the research community, from outside. 
From academia and private sectors we have not been able to make 
that transition to NOAA because the system is not allowing that 
flexibility. I think that----
    Ms. Bonamici. Thank you, Dr. Chen.
    And, Dr. Gail or Dr. Droegemeier, do you agree with that? 
Do you want to add to that, the information in the reports that 
may help inform NOAA?
    Dr. Gail. Yes, these are all excellent reports and provide 
a substantial basis of community input upon which legislation 
could be based. Helping NOAA move forward with implementation 
of these recommendations within legislation I think would be a 
very valuable thing.
    Ms. Bonamici. Thank you. Dr. Droegemeier?
    Dr. Droegemeier. Yes, thank you very much. I think we do 
have some exemplars of these kinds of testbeds that truly are 
integrative where you bring in the operational folks that are 
already there, you bring in the academics, you bring in other 
researchers, and they all work together toward the common goal.
    And not being parochial, but the one we have in Oklahoma, 
truly is unique because we have the university co-located, as 
Dr. Sullivan said, with an OAR lab, with National Operational 
Centers, plus a Forecast Office. When those folks get together, 
wonderful magic things happen, and that sounds a little trite 
but it is really true. And I think we can replicate that model.
    Ms. Bonamici. All right. Thank you. Dr. Sullivan agreed 
with you in terms of her testimony.
    Dr. Droegemeier. Yes, ma'am. Thank you.
    Ms. Bonamici. And there is a requirement in the draft 
legislation about the OSSEs. And do you--can you explain 
briefly other kind of evaluative tools that might be used? 
There is a requirement that may be too constraining we heard in 
the testimony, so if anyone wants to address. Are there other 
kinds of evaluative tools that might be used instead of OSSEs, 
and is that flexibility important?
    Dr. Droegemeier. I could address that real quickly. There 
are a variety of techniques and tools, one of which Dr. 
Sullivan mentioned is the adjoint technique. Basically, it 
tells you where the forecast error will be large and where you 
need observations. What is important about that is you can, if 
you are not careful, put observations where in fact they are 
going to degrade the forecast because it will put errors where 
you don't want errors to be and they might grow. And sometimes, 
these other assimilation techniques will actually create 
observations where they don't exist and you actually don't need 
observations.
    So we need--it is a very, very complex problem. We need to 
understand it. And I think the only thing that we are saying is 
basically there are many tools available. Probably let the 
scientists decide which ones are most appropriate. We are not 
at all discounting the value of OSSEs. We are just saying there 
are other techniques used in concert would be helpful.
    Ms. Bonamici. Thank you. We heard testimony about that 
flexibility. And in my remaining time I just want to follow up 
on the social science research. Dr. Droegemeier, you talked 
about and the Chairman mentioned about the importance of how to 
communicate. Of course, the timing is important but the message 
is important as well, so it was an issue in Katrina as well, 
how that communication is and how we get people's attention. So 
could--maybe if any of you want to, in my remaining time, just 
add how that research can be furthered through that bill, 
please?
    Chairman Stewart. In the remaining two seconds.
    Ms. Bonamici. Sorry, I am out of time. Well, I yield back 
and maybe I will ask for some input in writing from the 
witnesses about that important issue.
    Thank you, Mr. Chairman.
    Chairman Stewart. Thank you, Ms. Bonamici.
    To the Vice Chair, Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Mr. Droegemeier, I had a question for you specifically 
about the Multifunction Phased Array Radar. Earlier, you showed 
a video and you had those two lines and you were in--you were 
suggesting that we were able to predict tornadoes an hour ahead 
of time. Is that accurate?
    Dr. Droegemeier. Correct. And that was with a numerical 
forecast model if I failed to mention that. It was initialized 
with radar data but you are seeing simulated with the model 
radar data.
    Mr. Bridenstine. Okay. So as far as our numerical model, 
how do we compare to the rest of the world in our ability to 
use that?
    Dr. Droegemeier. With these particular models, we called 
them cloud resolving models. We lead the world. There is no 
question. In fact, we pioneered this whole area of the fine 
scale prediction. Other groups are now doing a lot of wonderful 
work but we really lead the way on that.
    Mr. Bridenstine. And on this Multifunction Phased Array 
Radar, is there anywhere else in the world that has that?
    Dr. Droegemeier. In military circles, phased radar is used 
a lot, as you know. As far as phased array, weather radar is 
really--I think we are leading the area there as well.
    Mr. Bridenstine. Are there multiple of those in the United 
States or is there only one?
    Dr. Droegemeier. Right now, there is one testbed in Norman 
called the National Weather Radar Testbed. There is a lot of 
development going on. The FAA and NOAA are jointly looking at a 
system that would not only track weather but also track 
aircraft as well.
    Mr. Bridenstine. Wonderful. So if you were to have--is 
there any talk of maybe one day eventually networking multiple 
Multifunction Phased Array Radars together, networking maybe 
throughout the greater Oklahoma City area to provide as much 
energy as possible into a specific target for purposes of, no 
kidding, enhancing that one-hour capability that you have 
already identified?
    Dr. Droegemeier. That is an excellent question. In fact, 
the National Science Foundation, almost ten years ago, funded a 
center to focus just on that where instead of having large 
phased array radars you actually have small ones and they talk 
to one another and they collaborate----
    Mr. Bridenstine. Right.
    Dr. Droegemeier. --and say, hey, there is a tornado over 
here. Let's focus our attention on that because that is what is 
really important right now, and then later on, focus attention 
on something else. So that has been done experimentally and we 
are looking at that as part of the operational system going 
forward.
    Mr. Bridenstine. The distributed networking capability that 
we have leveraged inside the United States military it seems 
would be highly valuable to get better information for weather.
    But certainly one other thing, when you think about the 
Multifunction Phased Array Radar, is this a technology that 
would be kept in the public sphere or is this something that 
the private sector could eventually advance and develop a part? 
Is there any revenue model by which this could be valuable for 
a private enterprise?
    Dr. Droegemeier. That is an interesting question. The 
private sector is actually involved in helping develop the 
prototypes. Various companies are doing that. As far as the 
operational structure, that is a good question. Would it be a 
government-run system or could it be a privatized system by 
which the government would purchase data or--I think that needs 
to be looked at. That hasn't been decided yet.
    Mr. Bridenstine. Okay. I yield back. Thank you, Mr. 
Chairman.
    Chairman Stewart. Thank you, Mr. Bridenstine.
    We now turn to Ms. Edwards, the gentlewoman from Maryland.
    Ms. Edwards. Thank you, Mr. Chairman. And thank you to our 
witnesses.
    I want to focus on behavioral and social sciences research 
because in the time that I have been on this committee we have 
held hearings, not recently, on the use and effectiveness of 
social science research, and there are a number of Members of 
this Committee who have point-blank rejected the use of that 
kind of research and the work that we do, and so I am 
intrigued, Dr. Droegemeier, by your testimony, and in 
particular on page 5 of your testimony where you point both to 
a University of Oklahoma preliminary study, as well as to the 
events surrounding the May 31st hurricane and--or tornado 
rather in Oklahoma City in Norman and surrounding communities. 
And you make a really compelling argument for the integration 
building on a foundation of social science and behavioral 
research that would augment the kind of weather forecasting 
that we also need to invest in.
    And so I wonder if you could be a little bit more specific. 
You have one recommendation for building on that, but where and 
what agencies would it be most appropriate if the Federal 
Government were involved in funding some of that research? I 
know that we do fund some research in other agencies--NIH, 
National Science Foundation, and the rest--but it is not all 
focused on weather forecasting. So if you could share your 
thoughts about that.
    Dr. Droegemeier. Well, thank you very much, Congresswoman. 
That is a really important point. And I think the term ``social 
sciences research'' is misunderstood. I think a lot of folks 
don't really know what all that involves. But the questions 
that we need to address are really fairly clear. They do 
involve human behavioral work.
    You are right. The National Science Foundation, National 
Institutes of Health, a lot of studies have been done. People 
that look at trust in terms of information and communication 
and verification. There is a broad body of literature already 
out there, but a lot of the social scientists--in fact, most of 
them--I don't think realize the opportunity that is available 
for them to come and link up with the weather community to 
really understand how to apply this body of scholarship, number 
one, that already exists; and number two, to do new studies 
that are geared specifically toward the weather challenges.
    But I think a lot of it is misunderstanding of what the 
social sciences are really about. And I have to say I had the 
same misunderstanding until I began working with them and 
really seeing the virtue of their activities.
    Ms. Edwards. And I did until I came to serve on this 
committee. I didn't get it at all. I thought it was kind of 
silly making. But it turns out that understanding behavior 
really should connect with the kinds of technology advances 
that we see.
    Do you have an idea of how much is spent or whether it 
would be worth it to have some of those resources actually 
engage through the National Weather Service and NOAA?
    Dr. Droegemeier. I think that is a good question. I don't 
know the amount of money that is spent across agencies or even 
within agencies, but I do think that NOAA--it doesn't need to 
stand up a whole big social sciences activity. I mean 
universities have entire social sciences programs across many, 
many departments. So I think NOAA is in a position to leverage 
that, but I do think there has to be a presence within NOAA 
that recognizes and helps, as Dr. Chen mentioned, transfer 
that--those research outcomes into the operational mainstream 
of decision-making and behavior in terms of how we do the 
warning and watch system.
    Ms. Edwards. Great. And just with my remaining minute-and-
a-half, I want each of you, if you could, to comment on the 
link--a link that you see or don't see between balancing NOAA's 
work on climate with the work on weather forecasting and 
whether or how those things are connected and whether you think 
that we struck the right kind of balance.
    Dr. Gail. Let's imagine that we didn't have a debate on 
anthropogenic climate change and climate change. I believe we 
would be doing the same research on climate that we are 
currently doing just to improve our weather forecasting. So 
what we are doing is really essential to what we are doing in 
climate.
    Dr. Chen. Yes, I want to comment on the jointedness of the 
weather and climate because if the system is together, there is 
no artificial dividing line. For instance, hurricanes, we are 
very much needing information of few weeks outlooks so exactly 
for the water management. And the same time as each storm close 
to landfall, we do transition to the forecast part very 
smoothly.
    So I just want to also possible follow-up on the question 
of the using social science to address this issue. Hurricane, 
for instance, is 7 days ahead. Whether we can get warnings and 
then whether it is good because that is interesting social 
science question. A lot of times our forecast is not precise 
and that could be--or a warning can actually do harm in terms 
of people's actions, so those are connected to issues that need 
to be addressed.
    Ms. Edwards. Thank you, Mr. Chairman.
    Chairman Stewart. Thank you, Ms. Edwards.
    And we appreciate your comments regarding the social 
science. And some of you may be interested to know that Section 
5 of this proposed legislation has extensive foundation 
therefore encouraging the social science and some of the 
communication process as well.
    Our final questioner then today is the gentleman from 
California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. Let me just note that 
there has been a great deal over the last 15 years of money 
spent specifically to prove that humankind is causing the 
climate change. To suggest that that would at the same time 
benefit weather forecasting stretches credibility because 
people were given grants specifically to prove that and other 
people were denied grants unless they were willing to prove 
that.
    Let me go back to the question that seems to have been 
asked before, something about this climate research going back 
to challenge the point you just made, for the dollars that we 
are spending in climate research, would not those dollars be 
better spent on weather research that we know affects and puts 
people in danger right now?
    Dr. Gail. Yes, thank you for the clarification. And that 
was really specifically referring to NOAA where really the 
large part of the climate research is focused on improving 
weather forecasting. And so----
    Mr. Rohrabacher. Department of Energy, et cetera, et 
cetera, has spent enormous sums of money on trying to prove 
that human beings are changing the climate. That has not helped 
weather forecasting. But let's--let me get into this one last 
thing because I have got three minutes to ask questions as well 
to get the answers from you folks.
    I understand that there is a gap--let's go right to weather 
forecasting--that there is a gap that will be appearing, if it 
is not already there, in the data provided by polar-orbiting 
and geostationary satellites. There will be a gap in that 
information. Is that correct? Is that predicted? Is it 
happening now? Is that something that is predicted? Whoever.
    Dr. Gail. That is certainly anticipated. I do come from the 
satellite industry a while back and you can never know how long 
a satellite is going to last, but there are certainly risks and 
widely recognized risks.
    Mr. Rohrabacher. So this is a--there is a significant gap 
that is--that we are facing in the information that we have 
been getting from these satellites? Now, we had--there was a 
hearing last year in which Dr. David Crane stated that possibly 
commercial satellite data doing this--getting that data 
commercially might actually be the most cost-effective way of 
doing this, but yet, in this Observing System Simulating 
Experiments that NOAA hasn't really looked at that option. 
Should NOAA be looking at that? Should the OSSE system focus on 
whether or not we can cost-effectively utilize private 
satellites for--to fill this gap that is expected? Anybody?
    Dr. Droegemeier. Well, I would just say the OSSEs 
themselves are really agnostic in terms of who operates and 
build the satellites.
    Mr. Rohrabacher. Right.
    Dr. Droegemeier. It really is telling what sensors are 
needed and how rapidly and so on. So it really doesn't--the 
OSSE itself doesn't address the question that you are asking.
    Mr. Rohrabacher. Right, but should NOAA then be doing--
taking the steps to see if this would be a cost-effective way 
of meeting this need that we will have in the future in terms 
of the data gap? Is there some reason we shouldn't use private 
satellites?
    Dr. Gail. Oh, absolutely not. I think there is a lot of 
room for innovation here in terms of how we access data, 
whether it comes from the private sector, whether it comes from 
the government, and it should be done in the most effective way 
possible, absolutely.
    Mr. Rohrabacher. Right. Let me just note, Mr. Chairman, 
that there are some things the government has to do and there 
are other things that can be contracted out. And before SpaceX 
arrived on the scene, everybody thought the government had to 
provide all the transportation systems to and from space 
station, for example. We have already saved about $500 million 
using SpaceX. Perhaps using commercial satellites, which have 
other functions that they can sell to the private sector, might 
be a good way to get in the information that would protect us 
from this data gap that we are going to face in the future.
    Thank you very much, Mr. Chairman.
    Chairman Stewart. Thank you, Mr. Rohrabacher, and I share 
your concern as well that satellite coverage gap between 2015 
and 2017 is troubling for us and we hope this legislation is 
able to address some of that.
    Let us conclude then. We thank the witnesses for your 
valuable testimony and for the Members for their questions as 
well. And once again, the Members may have additional questions 
for you, and we will ask that you respond to those in writing. 
The record will remain open for two weeks for additional 
comments and written questions from the Members. The witnesses 
are then excused and this hearing is adjourned.
    [Whereupon, at 11:39 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by The Hon. Kathryn Sullivan
[GRAPHIC] [TIFF OMITTED] 81727.052

[GRAPHIC] [TIFF OMITTED] 81727.053

[GRAPHIC] [TIFF OMITTED] 81727.054

[GRAPHIC] [TIFF OMITTED] 81727.055

[GRAPHIC] [TIFF OMITTED] 81727.056

[GRAPHIC] [TIFF OMITTED] 81727.057

[GRAPHIC] [TIFF OMITTED] 81727.058

[GRAPHIC] [TIFF OMITTED] 81727.059

[GRAPHIC] [TIFF OMITTED] 81727.060

[GRAPHIC] [TIFF OMITTED] 81727.061

[GRAPHIC] [TIFF OMITTED] 81727.062

[GRAPHIC] [TIFF OMITTED] 81727.063

[GRAPHIC] [TIFF OMITTED] 81727.064

[GRAPHIC] [TIFF OMITTED] 81727.065

[GRAPHIC] [TIFF OMITTED] 81727.066

[GRAPHIC] [TIFF OMITTED] 81727.067

[GRAPHIC] [TIFF OMITTED] 81727.068

[GRAPHIC] [TIFF OMITTED] 81727.069

[GRAPHIC] [TIFF OMITTED] 81727.070

[GRAPHIC] [TIFF OMITTED] 81727.071

[GRAPHIC] [TIFF OMITTED] 81727.072

[GRAPHIC] [TIFF OMITTED] 81727.073

[GRAPHIC] [TIFF OMITTED] 81727.074

[GRAPHIC] [TIFF OMITTED] 81727.075

[GRAPHIC] [TIFF OMITTED] 81727.076

[GRAPHIC] [TIFF OMITTED] 81727.077

[GRAPHIC] [TIFF OMITTED] 81727.078

[GRAPHIC] [TIFF OMITTED] 81727.079

[GRAPHIC] [TIFF OMITTED] 81727.080

Responses by Dr. Kelvin Droegemeier

[GRAPHIC] [TIFF OMITTED] 81727.081

[GRAPHIC] [TIFF OMITTED] 81727.082

[GRAPHIC] [TIFF OMITTED] 81727.083

[GRAPHIC] [TIFF OMITTED] 81727.086

[GRAPHIC] [TIFF OMITTED] 81727.087

[GRAPHIC] [TIFF OMITTED] 81727.088

Responses by Dr. William Gail
[GRAPHIC] [TIFF OMITTED] 81727.084

[GRAPHIC] [TIFF OMITTED] 81727.085

Responses by Dr. Shuyi Chen
[GRAPHIC] [TIFF OMITTED] 81727.089

[GRAPHIC] [TIFF OMITTED] 81727.090

[GRAPHIC] [TIFF OMITTED] 81727.091

[GRAPHIC] [TIFF OMITTED] 81727.092

                                 <all>

</pre></body></html>
